                                O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral



Th e SocialSe curity Adm inis tration’
                                     s 19 9 6 O ve rtim e Se ttl
                                                               e m e nt Cl
                                                                         aim s unde r th e

Fair Labor Standards A ct


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our audit of th e SocialSe curity
Adm inis tration’  s 19 9 6 O ve rtim e Se ttl
                                             e m e nt Claim s unde r th e Fair Labor Standards
A ct (A-13-9 7-9 2016). Th e obje ctive of th e re vie w w as to de te rm ine w h e th e r th e
re im burs e m e nt of ove rtim e claim s by th e SocialSe curity Adm inis tration (SSA ), as
a re s ul
        t of a 19 9 6 Fair Labor Standards A ct s e ttl     e m e nt, w as accurate l  y calcul ate d
and to ve rify docum e ntation us e d to s upport h ours w ork e d. Additional           l
                                                                                         y, w e
w ante d to de te rm ine w h e th e r SSA h ad im pl e m e nte d th e s e ttl
                                                                            e m e nt in accordance
w ith re l
         e vant de cis ions of th e Fe de ralLabor Re l   ations A uth ority and its arbitrators .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl  ate d on our
concl  us ions . Ifyou ch oos e to offe r com m e nts , ple as e provide your com m e nts
w ith in th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl
                                                                            e as e cal
                                                                                     lm e or
h ave your s taff contact Pam e l a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit,
at (410)9 65-9 700.




                                                              D avid C. W il
                                                                           liam s

A ttach m e nt

cc:

O IG/ES

IO Re ading Fil

               e
O A Re ading Fil e
Subje ct Fil
           e
C.M A RK O W ITZ :pjk :03-26-9 8
9 7-9 2016.TL:Re port Fil

                        e
                                          O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral


Th e SocialSe curity Adm inis tration’
                                     s 19 9 6 O ve rtim e Se ttl
                                                               e m e nt Cl
                                                                         aim s unde r th e Fair Labor
Standards A ct



O BJECTIVE
Th e obje ctive of th is re vie w e ntitl   e d, “Th e SocialSe curity Adm inis tration’    s 19 9 6 O ve rtim e
Se ttle m e nt Cl aim s unde r th e Fair Labor Standards A ct”(A -13-9 7-9 2016), w as to de te rm ine w h e th e r
th e re im burs e m e nt of ove rtim e cl   aim s by th e SocialSe curity Adm inis tration (SSA ), as a re s ul     t of a
19 9 6 Fair Labor Standards A ct (FLSA)s e ttl          e m e nt, w as accurate l y cal   ate d and to ve rify
                                                                                        cul
docum e ntation us e d to s upport h ours w ork e d. Additional           y, w e w ante d to de te rm ine w h e th e r SSA
                                                                          l
h ad im pl                        e m e nt in accordance w ith re l
           e m e nte d th e s e ttl                                   e vant de cis ions of th e Fe de ralLabor Re l  ations
Auth ority (FLRA)and its arbitrators . W e conducte d th is re vie w in re s pons e to an al             e gation
                                                                                                         l
conce rning th e proprie ty of l     arge re troactive ove rtim e paym e nts be ing m ade to e m pl      oye e s .

BACKGROUND
In D e ce m be r 19 87 and January 19 88, th e A m e rican Fe de ration of Gove rnm e nt Em pl     oye e s (A FGE)1
  e d grie vance s on be h al
fil                          f of ce rtain SSA e m pl oye e s , prote s ting SSA ’
                                                                                 s de te rm ination th at th e s e
e m ploye e s w e re “                       oye e s unde r th e FLSA and th e re fore e xe m pt from cove rage
                      adm inis trative ”e m pl
unde r th e ove rtim e provis ions in th e FLSA. Afte r de nialof th e grie vance s in M arch 19 89 , A FGE
invok e d arbitration. In




1
  Th e A FGE, A FL-CIO is th e ce rtifie d e xcl
                                               us ive re pre s e ntative of a nationw ide cons ol
                                                                                                idate d unit of
e m ploye e s appropriate for col
                                le ctive bargaining at th e SSA.
Page 4 - K e nne th S. A pfe l

a s e rie s of de cis ions by tw o arbitrators for th e FLRA, as w e l las FLRA, AFGE pre vail     e d w ith re gard
to m os t e m pl                                                                              oye e s .2
                 oye e pos itions at is s ue , and dam age s w e re aw arde d to th os e e m pl

SSA initial  ly paid dam age s to affe cte d e m pl   oye e s unde r th e various de cis ions re nde re d;h ow e ve r,
A FGE obje cte d to th e m e th ods us e d by SSA to cal       culate dam age s . Th e FLRA fil  e d an unfair l abor

practice proce e ding unde r

5 Unite d State s Code § § 7116(a)(1)and (8)agains t SSA in Fe bruary 19 9 4, cl              aim ing SSA fail
 e d to
obe y th e de cis ions re nde re d in th is m atte r. In
Nove m be r 19 9 5, an adm inis trative l    aw judge (A LJ) for th e FLRA issued a decision in favor of A FGE
(SocialSe curity Adm inis tration, Re s ponde nt, and A FGE, Ch arging Party, Cas e Nos . W A -CA -40267
and W A -CA -40268, Nov. 22, 19 9 5 [th e A rrigo de cis ion]). A LJ A rrigo orde re d SSA to am e nd
dam age s cal   culations and to tak e ce rtain s te ps to re ach m ore form e r SSA e m pl    oye e s w h o m ay h ave
be e n e ntitl
             e d to dam age s . SSA fil    e d e xce ptions to th e A rrigo de cis ion.

Th e partie s de te rm ine d th at SSA w oul d continue to pay out dam age s pe nding th e outcom e of th e
                                                                                                  e m e nt
appe alfrom th e A rrigo de cis ion. In Nove m be r 19 9 6, th e partie s e nte re d into a s e ttl
agre e m e nt w h e re by SSA w oul d pay dam age s to ce rtain e m ploye e s at SSA H e adq uarte rs , us ing th e
“. . . s am e paym e nt m e th odol ogy us e d to com pl
                                                       y w ith th e arbitration aw ards in Se galI, II, and III
and Vaugh n Iand II.” Th e partie s agre e d, h ow e ve r, th at “. . . th e s e paym e nt am ounts s h al  lbe
s ubje ct to m odification to conform to th e finalre s ults of th e pe nding unfair l   abor practice l  itigation
in Cas e s W A -CA -40267 and W A -CA -40268,”e xce pt for th e is s ue of




2
   A rbitrator H e nry L. Se galis s ue d th re e opinions in th is m atte r: “    Se galI”–h ol    ding th at Cl  aim s
Auth orize rs and Cl      aim s Exam ine rs w e re none xe m pt unde r th e FLSA (M ay 3, 19 9 1);“          Se galII”–
s e tting forth re m e die s (O ctobe r 28, 19 9 2);and “      Se galIII”–de te rm ining FLSA status of a varie ty of
oth e r job pos itions (Augus t 11, 19 9 3). Th e FLRA uph e l         d Se galIand II fol    low ing e xce ptions fil   e d by
SSA. U.S. D e partm e nt of H e al      th and H um an Se rvice s , SocialSe curity Adm inis tration,
Bal  tim ore , M aryl and and A m e rican Fe de ration of Gove rnm e nt Em pl       oye e s , 44 FLRA 773
(A pril14, 19 9 2);U.S. D e partm e nt of H e al        th and H um an Se rvice s , SocialSe curity Adm inis tration,
Bal  tim ore , M aryl and and A m e rican Fe de ration of Gove rnm e nt Em pl       oye e s , 47 FLRA 819
(June 9 , 19 9 3). Fol      l
                            ow ing th e re tire m e nt of A rbitrator Se gal, th e s tatus of Com pute r Spe cial     is ts
(Sys te m s A nal                   d none xe m pt unde r th e FLSA by Arbitrator M . D avid Vaugh n. U.S.
                   y s ts )w as h e l
D e partm e nt H e al  th and H um an Se rvice s , SocialSe curity Adm inis tration, Bal        tim ore , M aryland, Cas e
No. BW -89 -R-0044, Grie vance Nos . CG-UM G-88-01, FO -UM G-87-10 (“                      Vaugh n I”   ). Th e s tatus of
oth e r SSA e m pl   oye e pos itions unde r th e FLSA w e re re s ol   ve d by s e ttle m e nt of th e partie s and
approve d by Arbitrator Vaugh n by cons e nt orde r s igne d M arch 25, 19 9 6.
Page 5 - K e nne th S. A pfe l

“suffe re d or pe rm itte d”ove rtim e .3 In D e ce m be r 19 9 6, an FLRA arbitrator
approve d th e s e ttle m e nt te rm s in a cons e nt orde r. SSA b e gan dam age s payout in M arch 19 9 7 and
th os e payouts continue .

SSA’   s O ffice of H um an Re s ource s (O H R)w as re s pons ibl    e for ide ntifying allcurre nt and pas t
e m pl oye e s e l   e for paym e nts and for cal
                 igibl                                cul ating th e am ount of paym e nts due unde r th e
      e m e nt. O H R us e d th e H um an Re s ource s M anage m e nt Inform ation Sys te m to ide ntify al
s e ttl                                                                                                        l
h e adq uarte rs nons upe rvis ory com pute r anal    y s ts from 19 82 to th e pre s e nt. A com pute r tape w as
cre ate d by SSA ide ntifying al    le ligible pe rs onne lby nam e , SocialSe curity num be r (SSN), and ye ars
cove re d by th e e m pl oye e ’ s curre nt bargaining pos ition de s cription. Th e tape w as m atch e d w ith th e
D e partm e nt of H e alth and H um an Se rvice s (D H H S)payrol      lre cords 4 to ide ntify th e num be r of
ove rtim e h ours w ork e d by e ach e m pl   oye e . D H H S h as m aintaine d a fil e of allSSA e m pl oye e s w h o
h ave w ork e d ove rtim e s ince 19 82.

D uring th e m atch proce s s , th e D H H S payrol     ls y s te m com pute d back pay, l    iq uidate d dam age s , and
inte re s t by pay pe riod for e ach ye ar cove re d by th e e m pl      oye e ’s curre nt pos ition de s cription. Each
cove re d e m pl   oye e w as to re ce ive th e diffe re nce be tw e e n th e ove rtim e com pe ns ation h e /s h e
original  ly re ce ive d and w h at h e /s h e s h oul
                                                     d h ave re ce ive d unde r th e FLSA de cis ion. Th e output of
th e m atch produce d an SSA FLSA back pay re port for e ach e l                igibl
                                                                                    e SSA H e adq uarte rs e m pl  oye e
s h ow ing gros s paym e nt am ounts for back pay, l          iq uidate d dam age s , and/or inte re s t. A com pos ite
ch e ck tape com pute r l    is ting w as ge ne rate d from th e m atch s h ow ing th e actualpaym e nt am ounts
(gros s l  e s s w ith h ol
                          ding taxe s )by SSN, nam e , tim e k e e pe r num be r, dol    ar am ounts paid, and bank
                                                                                         l
account num be r. Th e re w e re 3,368 paym e nts initial           y is s ue d total
                                                                    l                ing $9 ,405,620.

SCO PE
Th is audit w as pe rform e d in accordance w ith ge ne ral ly acce pte d gove rnm e nt auditing s tandards .
                                ogy e m pl
W e re vie w e d th e m e th odol         oye d by SSA to e ns ure its com pl  iance w ith th e te rm s of th e
19 9 6 Se ttle m e nt. W e pe rform e d our re vie w at SSA H e adq uarte rs in Baltim ore , M aryland. Fie l d
w ork w as conducte d from June th rough Nove m be r 19 9 7 and incl        ude d:

•     inte rvie w ing pe rs onne lw ith in th e O H R’s Pe rs onne lM anage m e nt Inform ation Sys te m s and
      Payrol  l, and th e O ffice of Labor-M anage m e nt and Em pl    oye e Re lations Staff to unde rs tand th e
      proce s s us e d to accum ul  ate and cal   culate paym e nts , as w e l
                                                                             las to obtain docum e ntation
      re garding th e l itigation;

•     ide ntifying docum e ntation avail
                                       abl
                                         e to s upport th e cal
                                                              cul
                                                                ation us e d;




3
  Th e Se galIIopinion s tate d th at e m pl      oye e s m ay re cove r “suffe re d and pe rm itte d”ove rtim e , th at is ,
ce rtain ove rtim e not al    re ady docum e nte d in SSA tim e and atte ndance re cords , to th e e xte nt
e m ploye e s prope rl y coul    d prove s uch ove rtim e w as w ork e d. Th e partie s th e re afte r agre e d to a l um p
           e m e nt for “
s um s e ttl               s uffe re d or pe rm itte d”ove rtim e , re s ul
                                                                          ting in a paym e nt of $131.30 to e ach
e m ploye e , w h il
                   e affording e m pl   oye e s th e opportunity to prove “suffe re d and pe rm itte d”ove rtim e
above th at am ount. Th e A rrigo de cis ion h e l       d th at th e l               e m e nt viol
                                                                      um p s um s e ttl                          ie r
                                                                                                  ate d th e e arl
orde rs e nte re d in th is m atte r.

4
    D H H S w il
               lcontinue to pre pare payrol
                                          ltape s for SSA untilM arch 19 9 8.
Page 6 - K e nne th S. A pfe l

•   e xam ining s y s te m s output ide ntifying e l
                                                   igibl
                                                       e SSA H e adq uarte rs e m pl
                                                                                   oye e s , gros s am ounts for
    back pay, l iq uidate d dam age s , and/or inte re s t;

•   te s ting th e accuracy of th e cal
                                      cul
                                        ations us e d in com puting e m pl
                                                                         oye e s ’back pay;and

•   re vie w ing unfair l  abor practice l itigation to incl
                                                           ude grie vance s , opinions , arbitrator de cis ions , and
          e m e nt agre e m e nts re garding th e FLSA ove rtim e s e ttl
    s e ttl                                                             e m e nt of 19 9 6 be tw e e n SSA and
    A FGE.

RESULTS O F REVIEW
In te s ting th e accuracy of th e cal  cul ations us e d in com puting e m pl   oye e s ’back pay, w e found th at
s uch cal  culations w e re corre ct. H ow e ve r, w e w e re unabl
  e to ve rify docum e ntation us e d to s upport
h ours w ork e d as s h ow n on th e com pute r ge ne rate d paym e nt s y s te m s output be caus e SSA doe s not

m aintain tim e and atte ndance re cords pas t th e re q uire d re te ntion pe riod of 3 ye ars . In addition, w e

w e re unabl  e to de te rm ine th e bas is for th e com putation of th e ne gotiate d l                   e m e nt of
                                                                                           um p s um s e ttl

$131.30 paid to e ach e m pl      oye e for “suffe re d or pe rm itte d”ove rtim e as e xpl  aine d in footnote 3 of
th is re port. W e do note , h ow e ve r, th at e m pl oye e s w e re give n th e opportunity to dis pute th e
paym e nt, and re ce ive h igh e r am ounts if th e y coul   d provide proof th at th e ir dam age s e xce e de d
$131.30.

In addition, SSA re duce d ove rtim e back paym e nt aw ards by 50 pe rce nt for th os e e m pl        oye e s w h o
e arne d ove rtim e during th e pe riod D e ce m be r 16, 19 81 th rough Augus t 1, 19 87. Th is re duction
w as m ade bas e d on a dire ctive is s ue d by th e O ffice of Pe rs onne lM anage m e nt (O PM )w h ich s tate d
th at paid tim e off during a w ork pe riod (for h ol   iday, annuall                e ave , or any e xcus e d
                                                                       e ave , s ick l
abs e nce w ith pay)coul  d not count tow ard h ours w ork e d for purpos e s of cal        culating ove rtim e unde r
th e FLSA. H ow e ve r, rath e r th an us ing e xis ting payrol lre cords to de duct paid l   e ave from h ours
w ork e d for purpos e s of calcul ating ove rtim e back pay aw ards , SSA s im pl      y re duce d ove rtim e back
pay by 50 pe rce nt for al  le m pl oye e s .
Page 7 - K e nne th S. A pfe l

Th e A rrigo de cis ion h e l
                            d th at SSA im prope rl  y re duce d ove rtim e paym e nts by
50 pe rce nt and, citing Lane h art v. H orne r and A cton v. U.S.,5 h e l   d th at no re duction s h oul
                                                                                                         d h ave
tak e n place for th e affe cte d e m ploye e s be tw e e n
D e ce m be r 19 81 and Augus t 1, 19 87. M ore ove r, th e A rrigo de cis ion criticize d
SSA for not dil         y trying to l
                  ige ntl              ocate and notify re tire d pe rs onne ldue paym e nts unde r th is
agre e m e nt and orde re d SSA to e nh ance its e fforts .

SSA appe al   e d th e A rrigo de cis ion bas e d on th e ir conte ntion th at th e y prope rl    y re l
                                                                                                       ie d on O PM
re gulations in de te rm ining th e am ount of th e back pay due for ove rtim e w ork e d. W h il            e th at appe al
w as pe nding, in th e 19 9 6 Se ttl   e m e nt th e partie s agre e d to continue m ak ing paym e nts us ing th e
s am e m e th odol ogy us e d to com pl   y w ith th e e arl ie r orde rs e nte re d in th is l
                                                                                              itigation. O n D e ce m be r
23, 19 9 7, th e FLRA issued a finalde cis ion s us taining A FGE’           s pos ition as s e t out in th e A rrigo
de cis ion.

CO NCLUSIO N
Al th ough th e cal  culations w e te s te d w e re accurate , w e w e re not abl e to re vie w docum e ntation to
s upport h ours w ork e d be caus e re q uire d docum e ntation re te ntion pe riods h ad e xpire d. Conce rning
cal culations of “  dam age ”aw ards , w e h ave jus t re ce ive d notification th at th e FLRA h as s us taine d
th e union’  s pos ition w h e re in it conte s te d SSA’ s paym e nt m e th odology as be ing incons is te nt w ith
th e arbitration aw ards . W e w e re inform e d at our e xit confe re nce th at SSA w il      lm ak e no furth e r
appe al s . A ccordingl  y, w e h ave re q ue s te d th at SSA provide docum e ntation s upporting th e
cal culations of paym e nts to be m ade as a re s ul      t of th e
D e ce m be r 23, 19 9 7 de cis ion in orde r to e ns ure th at th e calcul ation of s uch paym e nts is accurate .




                                                                   D avid C. W il
                                                                                liam s




5
  In Lane h art v. H orne r, 818 Fe d. Cir. 1574 (Fe d. Cir. 19 87), th e U.S. Court of A ppe al       s for th e
Fe de ralCircuit concl  ude d th at h ours w ork e d for purpos e s of cal  cul ating ove rtim e unde r th e FLSA
m us t incl ude allpaid l e ave . A l
                                    th ough SSA re duce d ove rtim e in re l   iance on O PM re gul   ations onl  y for
h ours w ork e d prior to th e Lane h art de cis ion, in A cton v. U.S., 9 32 F.2d 1464 (Fe d. Cir. 19 9 1), th e
                     d th at th e prope r s tatute of l
Fe de ralCircuit h e l                                  im itations for ove rtim e back pay aw ards unde r th e
FLSA w as 6 ye ars , notw ith s tanding any appl      icabl e O PM dire ctive s in force prior to th e Lane h art
de cis ion.
Page 8 - K e nne th S. A pfe l
A PPEND ICES

                                                                      A PPEND IX A



              M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

Scott Patte rs on, D ire ctor, Eval
                                  uations and Te ch nicalSe rvice s
CarlM ark ow itz, Audit M anage r
            , Auditor
Ste ve W e al
1.




                                                     A -1

